LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 11, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-329:

WINSTON-SALEM INDUSTRIES FOR THE BLIND V. UNITED STATES
OF AMERICA; PDS CONSULTANTS, INC.

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for Amicus Curiae American Council of the Blind, on October 11, 2019, I caused
service to be made pursuant to Rule 29 on the following counsel for the Petitioner and
Respondents:
PETITIONER:
Carter G. Phillips
Sidley Austin LLP
1501 K Street, N.W.
Washington, DC 20005
202-736-8270
cphillips@sidley.com

RESPONDENTS:
Noel Francisco
Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov

This service was effected by depositing three copies of the Brief of Amicus Curiae
American Council of the Blind in Support of Petitioner in an official “first class mail”
receptacle of the United States Post Office as well as by transmitting a digital copy via
electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

